Supreme Court, U.S.
FILED

WAIVER

DEC 2 2 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Jim Bognet, et al.

20-740
v.

Kathy Boockvar, Secretary of Pennsylvania, et al.

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Delaware County Board of Elections
0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

12/22/2020
Edward D. Rogers
(Type or print) Name
Date.

0 Mr. 0 Ms. 0 Mrs.

❑ Miss

Ballard Spahr LLP
1735 Market Street, 51st Floor
Address
Philadelphia, PA
City & State
Firm

Phone

215-864-8144

Email

Zip 19103

rogerse@ballardspahr.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: David H. Thompson, Esquire

RECEIVED
DEC 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

